CERTIFICATE OF SERVICE
The undersigned hereby certifies that on this 11th day of August, 2020, service
of the foregoing was made in compliance with Supreme Court Rule 29.3 on all parties
required to be served by regular U.S. mail and email as follows:
Maribeth Meluch, Esq.
mmeluch@isaacwiles.com
Molly Gwin, Esq.
mgwin@isaacwiles.com
Isaac, Wiles, Burkholder & Teetor, LLC
Two Miranova Place, Suite 700
Columbus, Ohio 43215
Counsel for Respondent Jeff Maiden, Athens County Engineer

/s/ David T. Ball
DAVID T. BALL
Member, Supreme Court Bar
Counsel for Petitioners

